MATTHEW RODRIQUEZ
Acting Attorney General

State of California
DEPARTMENT OF JUSTICE
455 GOLDEN GATE AVE., STE 11000
SAN FRANCISCO, CA 94102

Telephone: (415) 510-3919
E-Mail: Samuel.Harbourt@doj.ca.gov

April 8, 2021
Hon. Scott S. Harris, Clerk
Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543
Re:

Sowinski v. California Air Resources Board, No. 20-1339
Request for Extension of Time

Dear Mr. Harris:
The petition for a writ of certiorari in this case was filed on March 22, 2021. The
response to the petition is currently due on April 23, 2021. Pursuant to Rule 30.4, respondent
California respectfully requests that the time for filing a response be extended by thirty days, up
to and including Monday, May 24, 2020 (because thirty days from April 23 is May 23, a
Sunday). An extension of time would allow for adequate time for internal review and would
better enable preparation of a response that respondent believes would be most helpful to the
Court. Counsel for petitioner consents to this extension of time.
Sincerely,
/s/ Samuel T. Harbourt
SAMUEL T. HARBOURT
Deputy Solicitor General
For

MATTHEW RODRIQUEZ
Acting Attorney General

